               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Postal Service Warranty Process

                       Audit Report




                                         September 25, 2013

Report Number DP-AR-13-011
                                                                  September 25, 2013

                                                                      Postal Service
                                                                    Warranty Process

                                                        Report Number DP-AR-13-011



BACKGROUND:
A warranty is an agreement offered by       Our objective was to determine whether
the seller or manufacturer to replace or    the warranty claims process ensures
repair a faulty item, or to reimburse the   that the Postal Service obtains a refund
purchaser in the event of a product         or replacement for purchases covered
failure. Warranty management is             by a manufacturer’s warranty.
essential to the U.S. Postal Service
because it owns and manages over            WHAT THE OIG FOUND:
200,000 commercial products that have       The Postal Service effectively managed
a manufacturer’s warranty. These            the warranty claims process for
commercial products include items such      commercial products and obtained a
as copiers, computers, and Automated        refund or replacement for items covered
Postal Centers; and communication           by a warranty. However, the Postal
devices such as cell phones and hand        Service did not recognize $2.7 million in
held scanners.                              expected annual labor savings from
                                            outsourcing the roof preventative
Another large category of warranties        maintenance program to a national
managed by the Postal Service is            contractor. Therefore, the Postal Service
building roof warranties. The Postal        is paying for workhours that should have
Service owns 8,622 buildings. The roofs     been saved because of outsourcing the
of these buildings have manufacturer’s      roof preventative maintenance from
warranties covering about 200 million       Maintenance Operations to a national
square feet with a replacement value of     contractor.
about $3 billion.
                                            WHAT THE OIG RECOMMENDED:
The Postal Service’s Maintenance            We recommended management reduce
Operations was previously responsible       future employee workhours for the
for the preventative maintenance of all     outsourcing of the roof preventative
Postal Service-owned roofs. However,        maintenance program using the Postal
roof replacement was occurring every        Service’s Workhour Estimator Program
10 to 15 years before the projected life    criteria. In addition, we recommended
expectancy and manufacturers denied         management update their policy to
warranty coverage because the required      quantify what constitutes major or
preventative maintenance was not being      significant labor savings.
performed. Therefore, in August 2011,
the Postal Service outsourced all roof      Link to review the entire report
maintenance and warranty management
to a national contractor.
September 25, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS

                           DOUGLAS A. TULINO
                           VICE PRESIDENT, LABOR RELATIONS



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Postal Service Warranty Process
                           (Report Number DP-AR-13-011)

This report presents the results of our audit of the U.S. Postal Service Warranty Process
(Project Number 13BG005FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Postal Service Warranty Process                                                                                    DP-AR-13-011




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Labor Savings Not Recognized ....................................................................................... 2

   Workhour Reduction Calculation ................................................................................. 3

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary Impacts ..................................................................................... 13

Appendix C: Management's Comments ........................................................................ 14
Postal Service Warranty Process                                                                         DP-AR-13-011



Introduction

This report presents the results of our audit of the U.S. Postal Service Warranty Process
(Project Number 13BG005FF000). Our objective was to determine whether the warranty
claims process ensures that the Postal Service obtains a refund or replacement for
purchases covered by a warranty. This audit was self-initiated. See Appendix A for
additional information about this audit.

A warranty is an agreement offered by the seller or manufacturer to replace or repair a
faulty item, or to reimburse the purchaser in the event of a product failure. The Postal
Service relies on warranty programs associated with commercial products, such as
copiers, computers, and Automated Postal Centers (APCs); and communication
devices such as cell phones and hand held scanners. The Postal Service has over
200,000 computers and hand held devices that have a manufacturer’s warranty. The
Postal Service’s Material Distribution Center in Topeka, KS, is the central office for
handling commercial product warranties. The MDC tracks the forwarding and return of
warranty items requiring service or replacement from vendors.

The Postal Service has a real estate portfolio of 8,622 owned buildings, with about
200 million square feet of roofs with a replacement cost of about $3 billion. These roofs
have manufacturer’s warranties. As a condition of the roof warranties, the Postal
Service is responsible for periodic inspections, clearing trash and debris off the roofs,
and providing written reports on their condition. For all but 400 of the 8,622 building
roofs, Maintenance Operations previously relied on local postmasters to perform these
duties by requesting assistance from the Field Maintenance Offices. For the remaining
400 buildings, Maintenance Operations previously performed these duties because
these large buildings were Maintenance Capable Offices (MCOs).1 We estimate that the
annual preventative maintenance labor cost for roofs on the 400 MCO buildings was
$2.7 million.

The Postal Service determined in 2010 that the existing roof preventative maintenance
program for all 8,622 owned buildings was not effective for performing the required roof
and warranty maintenance requirements. Roof replacement was occurring every 10 to
15 years before the projected life expectancy and manufacturers denied warranty
coverage because the required preventative maintenance was not being performed.
Therefore, in 2011 the Postal Service outsourced the roof maintenance program to a
national contractor with an initial 2-year contract cost of about $21 million.




1
  An office that has assigned maintenance personnel qualified to maintain a facility and the equipment installed at that
facility. Administrative Support Manual 13, Chapter 5, Facilities and Equipment, Section 53, Maintenance, Subsection
531.51, Offices with Maintenance Capability, July 1999, updated through May 2, 2013.
                                                           1
Postal Service Warranty Process                                                                       DP-AR-13-011



The Postal Service reported that by contracting out the roof maintenance function it
achieved a $30 million cost avoidance;2 however, this cost was not avoided, but
deferred for about 5 years because the maintenance will still be incurred. The Postal
Service used the $30 million originally budgeted for roofing maintenance for other
facility projects in fiscal year (FY) 2012, such as heating and air conditioning systems,
parking lots, and building repairs. While the Postal Service outsourced this function to
ensure the enforceability of their roof warranties, the program has not been in effect
long enough to determine its success.

Conclusion

The Postal Service effectively managed the warranty claims process for commercial
products such as copiers, computers, APCs, and communication devices and obtained
a refund or replacement for purchases covered by a commercial product warranty.
However, the Postal Service did not recognize $2.7 million in expected annual labor
savings from outsourcing the roof preventative maintenance program to a national
contractor. Therefore, the Postal Service is incurring workhours that it should have
saved because of outsourcing the roof preventative maintenance to the national
contractor. As a result, we identified $2.7 million of annual labor savings as questioned
costs, and $2.7 million of annual labor savings as funds put to better use.

Labor Savings Not Recognized

The Postal Service did not recognize $2.7 million in expected labor savings from
outsourcing the roof preventative maintenance program to a national contractor at the
400 MCO buildings. This occurred because the Postal Service committee who prepared
the cost savings analysis3 did not communicate the expected workhour reductions to
Maintenance Operations since Postal Service procedures4 did not require such
notification. Maintenance Operations was also unaware of the expected workhour
reductions because they were not part of the committee that performed the savings
analysis. Additionally, even if management had implemented the workhour reductions,
the amount of the expected reductions would not have been correct because the
committee did not correctly calculate them, as discussed below. Consequently, the
Postal Service did not realize $2.7 million in annual labor savings or the equivalent of
28 full-time maintenance employees.5 See Appendix B for a discussion of the monetary
impact calculation.

During subsequent discussions with management on August 12, 2013, management
provided a standard operating procedure (SOP) Guidelines for Considering National
2
  The Postal Service defines this not as a cost savings but as an identifiable and measurable elimination of a new
cost that would have otherwise occurred. Supply Management, Supplying Principles and Practices, Postal Service
(PS) Number 6-End of Life, Subsection 6-3.2 Total Cost of Ownership Estimate.
3
  The cost savings analysis refers to the National Article 32 Committee, which notifies Postal Service unions of a
cost-benefit analysis performed when subcontracting previous Postal Service work responsibilities. This committee
was comprised of two members each from the Supply Management and Facilities groups.
4
  Handbook EL-912, Agreement between United States Postal Service and American Postal Workers Union, AFL-
CIO 2010-2015, Article 32, Subcontracting.
5
  The 28 employees refers to total employee equivalents over a 1-year period at 1,760 workhours per employee.

                                                         2
Postal Service Warranty Process                                                                         DP-AR-13-011



Outsourcing Initiatives, dated October 2009. This SOP indicates that identified labor
savings do not need to be recognized unless the savings are major or have a significant
impact. However, the SOP does not quantify what is considered a major or significant
labor savings. Consequently, management believed they did not need to institute the
labor savings.

The Postal Service’s cost savings analysis calculated labor savings 6 of 10 full-time
equivalents (FTEs), or about $956,000 per year. However, using the Postal Service
Workhour Estimator Program (WHEP),7 as discussed in detail below, we calculated
workhour reductions of 28 FTEs, totaling about $2.7 million per year. We also
determined that Maintenance Operations incurred overtime and penalty overtime of
156 and 150 FTEs for FY’s 2011 and 2012 respectively. Therefore, we believe the labor
savings identified are significant and would complement the Postal Service’s Delivering
Results, Innovation, Value, and Efficiency (DRIVE) initiative to Optimize Network
Operations, including an objective for maintenance craft staffing to achieve savings of
$26.5 million.

Workhour Reduction Calculation

The Postal Service committee did not properly calculate the expected workhour
reduction. Specifically, the committee developed their own methodology to calculate an
18,160-workhour reduction. However, using the prescribed Postal Service methodology
resulted in a reduction of 49,053 workhours — a difference of about 31,000 workhours.

The Postal Service issued the WHEP in FY 2001, as guidance to determine the number
of workhours required for maintenance programs. The WHEP identifies the average
amount of time Postal Service maintenance personnel should spend doing certain
roofing functions. Maintenance Operations performed the roof preventative
maintenance duties at the 400 MCOs, which included about 360 of the largest Postal
Service buildings. Their responsibilities included checking roof expansion and control
joints, marking locations requiring repair, checking roof penetrations for damages and
problems, cleaning trash and debris from drains, and preparing roof condition reports.
However, the committee did not use WHEP to determine labor savings because it
received guidance from the Strategic Initiatives Action Group (SIAG)8 for calculating the
workhour reduction. The guidance included requesting an estimate from Maintenance
Operations of 2.5 workhours per site visit to perform roof preventative maintenance.




6
  Management calculated labor savings using Labor Distribution Code (LDC) 37 for preventative maintenance
workhours.
7
  Maintenance Management Order (MMO), MMO-074-00, October 10, 2000.
8
  This is Postal Service cross-functional group responsible for coordinating the processes involved in reviewing,
approving, and monitoring proposed outsourcing initiatives.

                                                           3
Postal Service Warranty Process                                                                          DP-AR-13-011



The Postal Service committee calculated the labor hours by applying the 2.5 hour
estimate as an average amount of time per roof visit. Based on 3,632 phone calls
requesting roof assistance received in FY 2010,9 the Postal Service projected it could
save 18,160 workhours, or the equivalent workhours of 10 employees. Table 1 shows
how the Postal Service calculated this reduction.

                   Table 1. Postal Service Workhour Reduction Calculation


                                                    Average                        Employee              Total
      Fiscal       Semiannual         Roof         Hours per           Total       Hours per           Employee
       Year          Visits           Visits       Roof Visit         Hours          Year             Equivalents
      2011             2              3,632           2.5             18,160         1,760                10
 Source: Memorandum of Due Consideration of Article 32 Factors Related to Roof Asset Management Services,
June 9, 2011.

However, using the approved methodology, we calculated the workhour reduction and
determined a savings of 30,893 more workhours and 18 more full-time staff equivalents
than the Postal Service committee calculated.

Table 2 shows the U.S. Postal Service Office of Inspector General's (OIG) calculated
workhour reduction that is equivalent to the workhours of 28 employees.

                          Table 2. OIG Workhour Reduction Calculation

                                                        Average
                                                       Number of
                                                     Employees per
        Total
                                                          visit
    Preventative
                                                      (Maintenance                         Employee           Total
    Maintenance
                      Semiannual          Total         & Safety              Total        Hours per        Employee
     Hours per
                        Visits            Hours         Monitor)              Hours          Year          Equivalents
       WHEP
       16,351                 2           32,702            1.5              49,053           1,760               28
Source: Postal Service WHEP criteria, MMO-074-00, October 10, 2000; and Postal Service letter, Working Safely on
Roofs, June 9, 2001.

Further, the Postal Service committee did not communicate to Maintenance Operations
the estimated labor savings and they, therefore, did not implement the expected
workhour savings. Therefore, the Postal Service is paying for workhours that should
have been saved because of outsourcing the roof preventative maintenance from
Maintenance Operations to a national contractor. This resulted in the Postal Service not
recognizing $2.7 million in annual labor savings or the equivalent of the workhours of
28 maintenance employees.


9
 The Facilities Single Source Provider receives and consolidates all repair and alteration requests for the Facilities
group. There is a dedicated call number for each area. Requests for service are routed through a call center,
prioritized, tracked, and resolved.

                                                           4
Postal Service Warranty Process                                                               DP-AR-13-011



Recommendations

We recommend the vice president, Network Operations, direct the manager of
Maintenance Operations:

1. To reduce future employee workhours for the outsourcing of the roof preventative
   maintenance program using the Postal Service Workhour Estimator Program
   criteria.

We recommend the vice president, Labor Relations:

2. Update the standard operating procedures, Guidelines for Considering National
   Outsourcing Initiatives, to quantify what constitutes major or significant labor
   savings.

Management’s Comments

Management disagreed with the reported findings, recommendations, and the monetary
impact.

Network Operations Management did not agree with recommendation 1. Management
provided the following factors supporting their determination.

    Changes to MMO-074-00 WHEP must be done through Article 19 and there is
     currently a Lean Six Sigma (LSS)10 project to recommend changes in this area.

    Management does not agree with the OIG’s assumption that time is capturable in
     the form of full time equivalent (FTE). Management stated that staffing is developed
     by each facility, independent of other facilities, and rounded up or down to develop
     the authorized FTE by facility. Since roof maintenance is nominal, more than likely, it
     would not change the FTE count.

    Onsite maintenance personnel are necessary to address the impact of wide scale
     weather changes.

    Further, extreme weather conditions, such as a hurricane, require critical roof tasks
     be completed by building maintenance personnel prior to the ensuing storm.

Labor Relations Management did not agree with recommendation 2. Management
disagreed with the OIG’s interpretation of the criteria (Guidelines for Considering
National Outsourcing Initiatives) utilized in developing the recommendation. The phrase
“Significant Impact” in the Guidelines for Considering National Outsourcing Initiatives
does not refer to cost avoidance or cost savings in a subcontracting project. That

10
  LSS - Lean management focuses on reducing waste and improving process flows while Six Sigma methodologies
concentrate on reducing variation or defects and improving quality.


                                                     5
Postal Service Warranty Process                                                 DP-AR-13-011



phrase has to do with the impact on bargaining unit work and primarily with significant
changes in conditions of employment, significant impairment of job tenure, employment
security, or reasonably anticipated work opportunities. Further, because the phrase
“significant impact” originates from the four different National Agreements, the Postal
Service has to comply with the contractual obligations set by each.

Management further states that a process is already in place to capture the benefit the
draft report seeks to gain from its recommendation. When evaluating the need to
subcontract, Article 32 of our respective National Agreements requires the Postal
Service to give due consideration to public interest, cost, efficiency, and availability of
equipment and qualification of employees. Subcontracting project sponsors present the
SIAG a memorandum of Due Consideration of the Article 32, which is reviewed prior to
determining the level of impact on bargaining unit work. Due consideration of the cost
factor, involves determining whether there will be an anticipated cost avoidance or cost
savings; and this factor is discussed at the SIAG meeting.

Management also noted that the draft report does not show a correlation between
potential costs savings not being recognized and a lack of communication between
Labor Relations, the SIAG or the subcontracting initiative sponsors.

Further, management said that the reference in footnote 5 regarding a National Article
32 committee is incorrect. Management further explained that the Article 32 committee
did evaluate cost savings associated with this subcontracting initiative. Also,
management disagreed with the OIG’s interpretation of the Article 32 process from
initiation, evaluation, reviewing, and approval of the subcontracting initiative.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments unresponsive to recommendations 1 and
2.

Regarding recommendation 1, management disagreed with our recommendation to
reduce future workhours by the amount of the workhour savings from the outsourcing of
the roof preventative maintenance program.

   Management stated there is a current LSS project to evaluate changes to the Postal
    Service Workhour Estimator Program. However, changing the program will not affect
    the already outsourced roof preventative maintenance program we evaluated. In
    addition, management did not provide the OIG any specific details about the LSS
    project during the audit or in management’s response that would change our
    conclusions.

   Management disagreed with the methodology we used in determining workhour
    savings. Additionally, management provided a new annual roof preventative


                                             6
Postal Service Warranty Process                                                                    DP-AR-13-011



       maintenance workhours calculation of 20,000 workhours. These hours are
       equivalent to 11 FTEs as compared to the Postal Service’s original calculation of
       10 FTEs. However, as we noted in the report, the Postal Service calculation should
       have originally been 28 FTEs because the Postal Service did not follow their own
       preventative maintenance criteria.11 As we further noted in the report, the reduced
       FTEs resulting from outsourcing the annual roof preventative maintenance work;
       whether 10, 11, or 28 FTEs can be reduced at a national level and not facility by
       facility. In addition, another opportunity to reduce the maintenance workhours from
       the outsourcing of the roof preventative maintenance program is overtime. The
       Postal Service incurred156 and 150 FTEs of overtime workhours in these
       operational functions during FY’s 2011 and 2012, respectively.

      We agree that general roof maintenance and storm preparation maintenance is
       necessary; however, our audit focus was on the preventative maintenance directly
       related to roof warranties and used as a justification for outsourcing the roof
       preventative maintenance program to a national contractor for $21 million.

Regarding recommendation 2, Labor Relations disagreed with our recommendation to
update the SOP, Guidelines for Considering National Outsourcing Initiatives, to quantify
what constitutes major or significant labor savings. Additionally, management maintains
the term “significant impact” only refers to the impact on bargaining union work.
However, the SIAG Guidelines also recognize other decision factors such as
consistency with organizational goals, retention of management responsibility, security
and integrity, and whether quality levels will be maintained. Therefore, we believe the
identified labor savings are significant and would support the Postal Service’s DRIVE
initiative to Optimize Network Operations, including an objective for maintenance craft
staffing to achieve savings of $26.5 million12. Recommendation 2 addresses the need to
quantify what is major or significant labor savings which in-turn will help the Postal
Service make consistent management decisions.

Management stated they believe a process is in place to capture the labor savings
benefit we identified in recommendation 2. However, as noted in our report, the Postal
Service did not have a process to capture the identified labor savings and did not intend
to recognize the labor savings.

Management also stated that the report does not show a correlation between potential
costs savings not being recognized and a lack of communication between Labor
Relations, the SIAG, or subcontracting initiative sponsors. However, we believe the
report does show a direct correlation regarding labor savings not being recognized and
the lack of communication. As noted in our report, management quantified the labor
savings used for the justification to outsource the roof maintenance program, but did not
communicate these savings to Maintenance Operations. During our audit, Maintenance
Operations stated that they were not informed about the labor savings used in the
justification to outsource the roof preventative maintenance program.

11
     MMO-074-000, October 10, 2000.
12
     Drive Initiative Number 1; Optimize Network Operations, Road Map Number 1.7 – Maintenance Optimization.

                                                         7
Postal Service Warranty Process                                                                      DP-AR-13-011




Management also stated the information in footnote 5 was incorrect as there is no
National Article 32 committee. We agree there is no National Article 32, however, the
committee referenced in our report dealt with an Article 32 issue with a nationwide
impact. Our reference to Article 32 in Footnote 3 (not Footnote 5 as stated in
management’s response) states in part, “This committee was comprised of two
members each from the Supply Management and Facilities groups.” This specific
committee was the “Sponsor” responsible for all aspects of the proposed outsourcing
initiative. The sponsor then presented the results to the SIAG, which is a cross-
functional group comprised of representatives from the Law Department, Finance,
Operations, Supply Management, Public Affairs and Communications. The SIAG is
responsible for coordinating the processes involved in reviewing, approving, and
monitoring proposed outsourcing implementation, which includes notifying the national
unions. During the audit, we determined that Maintenance Operations was not informed
of any cost savings associated with this Article 32 outsourcing initiative. However, the
Guidelines for Considering National Outsourcing Initiatives clearly states that

          . . .if this review shows that major savings can be realized through
          operational adjustments and these adjustments can reduce the cost of
          in-house operations in a cost-effective and timely fashion, they should
          be implemented prior to the outsourcing initiative being completed 13.

In our opinion, this resulted in $2.7 million of annual savings not communicated to
maintenance operations for consideration.




13
  Guidelines for Considering National Outsourcing Initiatives, IV Developing Cost Data, Parameters of the Analysis
(5), page 12, October 2009.

                                                         8
Postal Service Warranty Process                                                                     DP-AR-13-011




                                Appendix A: Additional Information

Background

The Postal Service owns and manages commercial products such as copiers,
computers, and APCs; and communication devices such as cell phones and hand held
scanners. Over 200,000 of these commercial products have a manufacturer’s warranty.
The four major products we reviewed were Ricoh, Hewlett Packard, International
Business Machines (IBM), and Motorola. Each of these products had warranty
programs administered by the vendor. The Postal Service monitors these warranty
programs and maintains a relationship with the manufacturers.

The Topeka MDC warehouses and distributes repair parts, equipment, and supplies for
the Postal Service. The MDC also manages warranty repaired parts returned from the
supplier tracking the items for inclusion back into the Postal Service's inventory system.
The Postal Service tracks material distribution, warehousing, and inventory
management business functions through the Material Distribution and Inventory
Management System. This includes all inventory items and accounts for purchases,
usage, disposals, returns, and adjustments.

To assist in managing warranted items, the Postal Service accounts for warranted item
transactions in general ledger account (GLA) 52190 Warranty Repair Cost. When a
warranted asset is returned to a vendor the value of the asset is recorded in the account
and when the vendor returns the asset, an offsetting entry is recorded. Therefore, the
balance should reflect the value of assets the Postal Service has shipped and is
awaiting return. We reviewed about 100,000 transactions processed through
GLA 52190 during FYs 2011 and 2012 and reconciled the ending balance of $6.4
million, indicating items were appropriately processed for warranty repairs and
replacements.

The Postal Service's roof warranty program includes 8,622 owned buildings that require
a roof preventative maintenance program. This roof preventative maintenance program
requires semiannual inspections, including removal and disposal of all debris from roofs,
cleaning and opening drains and gutters, and reattaching any loose metalwork
(flashings, counter-flashings, gutters, and downspouts). Prior to August 2011,
Maintenance Operations was responsible for the roof preventative maintenance of all
8,622 Postal Service-owned buildings and recorded their time in LDC 37.14

The Postal Service Supply Management and Facilities groups determined in FYs 2010
and 2011 that the existing roof preventative maintenance and roof repair programs were
not benefiting the Postal Service. Facilities provided Maintenance Operations with
specific roof preventative maintenance requests through the Facilities Single Source
Provider in FY 2010. However, Maintenance Operations rejected 36 percent of Facilities

14
  An LDC is assigned to each Postal Service employee. The LDC is a 2-digit code that identifies workhours by
function. Handbook F-20A, Accounting Services Systems and Processes, Section 3-8.3 LDC, December 2009.

                                                        9
Postal Service Warranty Process                                                                        DP-AR-13-011



requests for roof preventative maintenance and only completed 67 percent of the
preventative maintenance requests that were accepted. This occurred because
Maintenance Operations only accepted responsibility for the 400 MCOs. Postal Service
Facilities found that Maintenance Operations did not follow their own criteria15 when
performing the required preventative maintenance. This included procedures such as
cleaning trash and debris off the roofs and from roof drains, checking roof penetrations
for damage or problems, note areas that need repair with spray paint and mark up roof
drawings, and preparing a report on the roof condition and necessary repairs. As a
result, Facilities completed a cost savings analysis, which resulted in the Postal Service
obtaining an outside contractor to perform the required roof maintenance.

Once the cost savings analysis agreement between the Postal Service and the
bargaining unit was completed, the Postal Service solicited requests for a roof asset
management consultant and received 10 qualified bids to outsource roof maintenance.
The main objectives of the roof maintenance program are to work with the roof
manufacturers to ensure the existing roof warranties are viable, extend the useful life of
the 8,622 Postal Service-owned property roofs, and develop a roof database for future
reference. The scope of services was to provide all material, labor, and equipment
through its own forces or through subcontracts to accomplish all or portions of the work
as defined in each work order.

Objective, Scope, and Methodology

Our objective determined whether the warranty claims process ensured that the Postal
Service obtained a refund or replacement for purchases covered by a warranty
program.

To accomplish our objective, we reviewed the four major product warranty programs by
interviewing all 14 Postal Service contract officers, contract officer representatives, and
purchasing specialists to determine the warranty process. This included an examination
of contract documents, an analysis of warranty claims transactions, and confirming the
warranty claims process with 15 Postal Service end-users. We also conducted both on-
site interviews and contract reviews in Greensboro and Raleigh, NC; Windsor, CT; and
Washington DC. In addition, we:

    Reviewed Postal Service Supply Management Principles and Practices, the Federal
     Acquisition Regulations, and the 39 Code of Federal Regulations, Part 601 for the
     refund or replacement of purchases covered by a warranty.

    Obtained and reviewed financial data from the Postal Service Enterprise Data
     Warehouse,16 Accounting Data Mart,17 Facilities Management System,18 and the

15
   MMO-074-00, October 10, 2000.
16
   This is an organization-wide data storage and reporting system.
17
   This is the repository for all accounting and financial data for the Postal Service.
18
   Electronic contract document repository system that allows users to electronically store contract documents related
to Postal Service real estate.


                                                          10
Postal Service Warranty Process                                                 DP-AR-13-011



    Roth Bros, Inc. website where Postal Service roofing data is managed and stored as
    required in the August 2011 contract. This database is used in developing future
    Postal Service roof repair and replacement schedules.

   Discussed and reviewed four warranty programs (Ricoh, Hewlett-Packard, Motorola,
    and IBM) and their administration with their program contracting officers. This
    included an examination of the vendor contract documents, analyzing the warranty
    claims transactions, and confirming that the Postal Service did not incur any
    additional cost and the product was replaced according to the warranty terms.

   We also reviewed about 100,000 transactions in GLA 52190 and reconciled the
    account balance of $6.4 million to applicable inventory records. We also performed
    limited transaction testing to confirm that internal controls were operating effectively
    for the Ricoh and Hewlett-Packard warranties. Specifically, we judgmentally selected
    a sample of six of 34 Ricoh purchases in FY 2012 and a random sample of six of
    596 Hewlett-Packard warranty items and traced the warranty transactions. Based on
    our analysis of the GLAs and transactions, we determined that the Postal Service is
    ensuring that they receive a refund or replacement for purchases covered by a
    manufacturer’s warranty.

   Our review of APCs included interviews with the contracting officer and a
    review of the contract documents. The APCs include IBM software warranted for
    only 30-90 days, after which the Postal Service enters into a maintenance
    agreement for both software and APC parts. In addition, we interviewed the
    contracting officer for Motorola and reviewed their contract. Motorola maintained
    ownership of their communication devices and only provided the Postal Service with
    a data plan on each unit. Therefore, there was no warranty, as such, on the
    equipment, but Motorola would replace the equipment at no charge when a unit
    failed.

   Interviewed Postal Service Supply Management, Facilities, and Maintenance
    Operations personnel and reviewed their process for the roof asset management
    services outsourced to Roth in August 2011. Specifically, we reviewed National
    Article 32 justification documentation for outsourcing the Roof Asset Management
    Supplier program. We reviewed five site audits conducted by Facilities to determine
    whether Maintenance Operations performed the required preventative maintenance
    work. Further, we recalculated the National Article 32 committee’s projected cost
    savings to the Maintenance Operations and estimated an increase in the projected
    savings to the Postal Service.

   Reviewed and confirmed all 131 scheduled roof replacement projects for FY 2012
    that the Postal Service deferred for up to 5 years. Our review confirmed this deferred
    maintenance totaling $29 million was returned to budget line 63 and used for other
    repair and alteration projects.




                                             11
Postal Service Warranty Process                                                  DP-AR-13-011



   Reviewed Postal Service Maintenance Operations policies directly related to their
    roofing preventative maintenance program.

We conducted this performance audit from October 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 12, 2013, and included their
comments where appropriate.

We assessed the reliability of warranty data by comparing a sample of the transactions
to supporting documentation. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             12
Postal Service Warranty Process                                                                       DP-AR-13-011




                                    Appendix B: Monetary Impacts

           Recommendation                       Impact Category                            Amount
                 1                      Questioned Costs19                                 $5,351,808
                 1                      Funds Put to Better Use20                           5,351,808
               Total                                                                      $10,703,616

To determine the amount of questioned costs, we calculated Postal Service roof
preventive maintenance schedule costs from the WHEP. In addition, the Postal Service
Roof Safety Protocol requires the use of a safety monitor.21 We calculated workhours
for safety monitoring using 50 percent of the total preventative maintenance hours. We
multiplied total workhours by the fully loaded hourly rate for a PS-09 Building Equipment
Mechanic in the National Average Labor Rates – FY 2011 Actual, FYs 2012 and 2013
Projections.”22

Table 3 provides a breakdown of how we calculated the estimated savings.

                             Table 3. Workhour Reduction Calculation

      Total Employee                   Hourly          Employee Hours
                                                                                      Annual Savings
       Equivalents                      Rate              per Year
            2823                       $54.30              1,760                          $2,675,904
Source: Postal Service National Average Labor Rates – FY 2011 Actual, FYs 2012 and 2013 Projections.

We determined labor savings for the equivalent of 28 employees by dividing the total
yearly workhours of 49,053 by 1,760. We identified $5.4 million of the labor savings for
FYs 2011 and 2012 as questioned costs over 2 years and $5.4 of funds put to better
use for 2 years (FYs 2013 and 2014).




19
   Questioned costs are unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract,
etc. May be recoverable or unrecoverable and are usually the result of historical events.
20
   Funds that could be used more efficiently by implementing recommended actions.
21
   Postal Service letter, Working Safely on Roofs, June 9, 2001.
22
   National Average Labor Rates – FY 2011 Actual, FYs 2012 and 2013 Projection.
23
   Twenty-eight total employee equivalents are rounded up from 27.8710.

                                                         13
Postal Service Warranty Process                                DP-AR-13-011



                           Appendix C: Management's Comments




                                          14
Postal Service Warranty Process        DP-AR-13-011




                                  15
Postal Service Warranty Process        DP-AR-13-011




                                  16
